No.
r^>-

IN THE
SUPREME COURT OF THE UNITED STATES

James Earvin Sanders
(Your Name)
vs.
Lorie Davis

Director, TDCJ_ RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE

FIFTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)

FILED
MAY 0 7 2020

PETITION FOR WRIT OF CERTIORARI

SUPREM^COUR^m QK

James Earvin Sanders TDCJ-ID# 15793Z8
(Your Name)
2101 FM 369 North
(Address)
Iowa Park, TX 76367
(City, State, Zip Code)
Allred Unit
(Phone Number)

7

QUESTION(S) PRESENTED

If a petitioner can demonstrate that he falls under a built-in
tolling provision a described in 28 U.S.C. §2244(d)(l)(A)-(D),
does he also need to demonstrate the "extraordinary circumstances"
of Holland v. Florida, or the "rare and exceptional circumstances"
of Davis v. Johnson?
Is there a limit to how long a petitioner can be protected under
provision (B) of the above statute?

LIST OF PARTIES

[X] All parties appear in the caption of the case on the
cover page.

RELATED CASES

Sanders v. State no. 02-08-058-CR, 2008 WL 4445644 (Tex.App.Fort Worth Oct. 2, 2008, no pet.).
Sanders v. Director, TDCJ-CID, No. 4:19-cv-00236, U.S. District
Court for the Eastern District of Texas. Judgment entered July
1, 2019.
Sanders v. Lorie Davis, Director, No. 19-40633, U.S. Court of
Appeals for the Fifth Circuit. Judgment entered Dec. 13, 2019.

ii

/

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2
3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
HISTORY OF THE CASE........................................................................
STATEMENT OF THE CASE...........................................................

5
10

REASONS FOR GRANTING THE WRIT

20

CONCLUSION
APPENDIX....

22
23
INDEX TO APPENDICES

APPENDIX A: Denial Order- Fifth Circuit

APPENDIX B: Order of Dismissal- USDC, Eastern District of Texas

APPENDIX C: Magistrate's Report & Recommendation

APPENDIX D: Judgment-Second Dist. of Texas, Court of Appeals
APPENDIX E

APPENDIX F

iii

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Davis v. Alabama, 596 F.2d 1214, 1218 (5th Cir. 1979)..10
Davis v. Johnson, 158 F.3d 806 (5th Cir. 1998).

16.18.19.20

Faretta v. California, 422 U.S. at 819................

10,12

Fisher v. Johnson, 174 F.3d 710 (5th Cir. 1999)

15.18.20

Gaines v. Hopper,

575 F.2d 1147, 1149-50 (5th Cir. 1978)..14

Holland v. Florida, 130 S.Ct. 2549 (2010)

16,18,19,20

Libby v. Magnusson, 177 F.3d 43, 47-48 (1st Cir. 1999)..15
Lonchar v. Thomas, 116 S.Ct. 1293 (1996)........

21

Loyd v. Whitley, 977 F.2d 145 (5th Cir. 1992)

11

McCarthy v. United States, 394 U.S. 459, 466 (1969)...14
McLuckie v. Abbott, 337 F.3d 1193, 1199 (10th Cir. 2003)..11
Pesch v. State, 524 S.W.2d 302 (Tex.Crim.App.1975)....11
Powell v. Alabama, 287 U.S. 45, 58 (1932)..............

10

Profitt v. Waldron. 831 F.2d 1245 (5th Cir. 1987)

12

Smith v. Wainwright, 777 F.2d 609 (11th Cir.1985)

12

Strickland v. Washington, 466 U.S. 668 (1984)....

13

United States v. Cronic, 466 U.S. 648 (1984)........

10

United States v. Kauffman, 109 F.3d 186 (3rd Cir. 1997)..11
United States v. Nahodil. 36 F.3d 323 (3d Cir. 1994)..14
Woodard v. Collins, 898 F.2d 1027, 1029 (5th Cir. 1990)..13
STATUTES
28 U.S.C. §2244(d)(1)

15,16-20

CONSTITUTIONAL PROVISIONS
United States Constitution, Amendment I..........

17

United States Constitution, Amendment V..........

17

United States Constitution, Amendment VI........

10,11

United States Constitution, Amendment XIV....

10,17

iv

RULES
Supreme Court Rule 10(a)&(c)

14

v

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[X] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

A

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
N/4 ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

B

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
N/a [ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the Second District of Tx,r.nnrt- of App^alOftort

appears at Appendix__D__ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished. I believe.
1.

to

JURISDICTION
[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was 12/13/2019
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
, and a copy of the
order denying rehearing appears at Appendix
[X] An extension of time to file the petition for a writ of certiorari was granted
to and including May 11, 2020
. (date) on March 12,2020 (date)
in Application No. 1 9 A 1008 .
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitution, Amendment I:
Congress shall make no law respecting an establishment of
religion, or prohibiting the free exercise thereof; or
abridging the freedom of speech, or of the press; or the right
of the people peaceably to assemble, and to petition the
Government for a redress of grievances.
United States Constitution, Amendment V:
No person shall be held to answer for a capital, or otherwise
rinfamous crime, unless on a presentment or indictment of a Grand
Jury, except in cases arising in the land or naval forces, or in
the Militia, when in actual service in time of War or public
danger; nor shall any person be subject for the same offence to
be twice put in jeopardy of life or limb; nor shall be compelled
in any criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use without
just compensation.
United States Constitution, Amendment VI:
In all criminal prosecutions, the accused shall enjoy the
right to a speedy and public trial, by an impartial jury of the
State and district wherein the crime shall have been committed,
which district shall have been previously ascertained by law, and
to be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for the defence.
United States Constitution, Amendment XIV:
All persons born or naturalized in the United States, and
subject to the jurisdiction thereof, are citizens of the United
States and the State wherein they reside. No State shall make
or enforce any law which shall abridge the privileges or immunities
of citizens of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal protection
of the laws.
28 U.S.C. § 2244
(d)(1) A 1-year period of limitation shall apply to an
application for a writ of habeas corpus by a person in
custody pursuant to the judgment of a State court. The
limitation period shall run from the latest of(A) the date on which the judgment became final by the
conclusion of direct review or the expiration of the
time for seeking such review;
3

(B) the date on which the impediment to filing an appli­
cation created by State action in violation of the
Constitution or laws of the United States is removed,
if the applicant was prevented from filing by such
State action:
(C) the date on which the constitutional right asserted
was initially recognized by the Supreme Court, if the
right has been newly recognized by the Supreme Court
and made retroactively applicable to the cases on
collateral review; or
(D) the date on which the factual predicate of the claim
or claims presented could have been discovered through
the exercise of due diligence.
SUPREME COURT Rules
Rule 10.

Considerations Governing Review on Certiorari

(a) a United States court of appeals has entered a decision
in conflict with the decision of another United States court
of appeals on the same important matter; has decided an
important federal question in a way that conflicts with a
decision by a state court of last resort; or has so far
departed from the accepted and usual course of judicial
proceedings, or sanctioned such a departure by a lower court,
as to call for an exercise of this Court's supervisory power;
(c) a state court or a United States court of appeals has
decided an important question of federal law that has not
been, but should be, settled by this Court, or has decided
an important federal question in a way that conflicts with
relevant decisions of this Court.

4

HISTORY OF THE CASE
On or around November 8, 2006, Mr. Sanders suffered a nervous
breakdown that precipitated a string of crimes that occurred over
a 10-day period. The initial crime was a stabbing which was done
with a screwdriver and culminated in several robberies. Two of
those aggravated robberies comprise the cases in this appeal. Mr.
Sanders has no recollection of the stabbing.
The Feds also charged Mr. Sanders with a felon in possession of
a firearm case in which he received a 300-month sentence. Petitioner
received an aggravated LIFE sentence from Denton County, in the
instant case, and it was stacked on top of the federal sentence
and run consecutively.
Thus, although this case and the felon in possession case (No.197498) are NOT directly related under the Supreme Court's definition,
the pistol is one and the same, as was the crime spree.
On November 18, 2006, Petitioner was interviewed by Carrollton
PD Detective Gregory Fraid. In said interview, Det. Fraid revealed
that he and Mr. Sanders attended the same health club, and that he
had seen Mr. Sanders in the club playing basketball with his son
on numerous occasions. He went on to say that when his investiga­
tion led to Mr. Sanders, he knew something was wrong, that Mr.
Sanders had suffered a psychological breakdown.
Therefore, he said he was only going to charge Mr. Sanders with
aggravated kidnapping rather than attempted murder or attempted
capital murder, because it was apparent that there were psycholog­
ical aspects to the case: and Det. Fraid charged Mr. Sanders accord­
ingly. That case was actually a Dallas County case.
Nonetheless, Det. Fraid made it clear that he gave credence to his
5

psychological assessment, and mentioned that eyewitness statements
supported his belief. This interrogation was recorded in Lewisville
PD (See State's Trial Exhibit 4), yet although it was clear that
Mr. Sanders had suffered a nervous breakdown, other police departments--including Lewisville-continued to interrogate Mr. Sanders
without providing psychiatric care to determine compentency or
defense counsel.
Instead, authorities took advantage of Mr. Sanders, who had suf­
fered a nervous breakdown and, ten days later, had still not received
any psychiatric treatment whatsoever despite Det. Fraid's assessment.
Yet they readily accepted confessions from him. Furthermore, his
erratic behavior and poor comprehension was apparent when he ran
out of an interrogation room and into the detectives bullpen where
a Lewisville PD detective pulled his gun on Mr. Sanders and ordered
him to get on the ground. Sanders said shoot me, shoot me, to the
detective who holstered his gun and fought Sanders. This incident
is chronicled in two separate police reports. See Exhibits 4-C & 5.
Once Mr. Sanders reached Denton County Jail, he visited with his
sisters, Phyllis Powell and Sheila Myers, and told them about the
Det. Fraid interrogation. Phyllis, a registered nurse, advised Mr.
Sanders to tell his attorney about the interrogation, request a
psych eval, and ask him to locate the interrogation tape.
In late November of 2006, Joseph Zellmer was appointed as Mr.
Sanders's court-appointed counsel, apprised of the nervous break­
down, Det. Fraid's interrogation and psychological assessment, and
asked to request a psych eval and locate the interrogation tape.
Zellmer was given Fraid's name, the charge, and the city (Carroll­
ton) where it occurred.
6

Nonetheless, Mr. Sanders repeatedly requested the tape and psych
eval at each visit, only to be told by Zellmer that he was looking
for the tape but "hadn't located it yet." Thus, in late-March, Mr.
Sanders wrote Zellmer a letter to document the requests for the
psych eval and the tape.
Zellmer did not reply via mail but rather came to visit Mr. Sand­
ers in Denton County Jail. During this visit, Mr. Sanders, again,
asked if Zellmer had located the tape and requested the psych eval.
Zellmer then told Mr. Sanders that the interrogation tape "does not
exist," and that he "could not come up with a defense to explain to
a jury why you committed these crimes." He went on to suggest that
Mr. Sanders plead guilty and go to the jury for punishment.
It should be noted that the State's offer was an aggravated LIFE
sentence.
Mr. Sanders did not wish to plead guilty and told Zellmer as much.
Zellmer then jumped up and went on a tirade about how Mr. Sanders
had tied his hands by confessing to the crimes, and if Mr. Sanders
wasn't going to listen to his advice, then he was getting off the
case as his lawyer.
After more coercion by Zellmer, Mr. Sanders agreed to change his
plea to guilty and go to trial for punishment. This decision was
based on Zellmer's assertion that the tape did NOT exist, and there
was no evidence to build a defense with.
These were blatant lies. Even at this point

late-March of 2007,

Mr. Sanders still pushed for the psych eval, which was not conducted
until June 26, 2007. This was not only seven months after Sanders's
arrest, but it was conducted 'after' Zellmer advised Sanders to
plead guilty.
7

Later, Zellmer would tell his client that the psych eval did not
help their case. This was chiefly because there was supposedly no
interrogation tape or other psychiatric mitigating evidence for
the evaluator to use to determine his state of mind at the time the
offenses were committed.
Yet, at trial for punishment, ADA Mary Miller presented the tape
as State's Exhibit 4. Mr. Sanders then asked Zellmer, "Isn't that
the tape I asked you to find, the one you said didn't exist?" Thus,
Zellmer initially objected to the tape, but during the afternoon
recess and outside the presence of the jury, he withdrew it. See
Trial Excerpt Copy at 94-96 of State's Answer to Applicant's 11.07.
Please note that bailiffs had strapped a shock device around Mr.
Sanders's chest and had threatened to shock him, drag him out of
the courtroom, and continue the trial without him at the slightest
"outburst." Therefore, Mr. Sanders was afraid to say anything.
Zellmer would later tell Mr. Sanders that the DA suppressed the
tape, yet when Mr. Sanders asked his court-appointed appeal lawyer,
J. Stanley Goodwin, to file on the suppression, he said he could
not because:
1) Zellmer did not cite suppression of evidence in the objection;
and 2) Zellmer withdrew the objection.
Furthermore, Mr. Sanders filed on the suppression of evidence
based on what Zellmer had told him, only to have Zellmer himself
defeat the ground for the State by now claiming he had the tape the
whole time and viewed it as early as "1-25.See Sworn Affidavit
at 2, Attorney response to Applicant's Assertion #1.
Mr. Sanders was convicted on February 1, 2008. Filed the direct
appeal and no PDR. He received his discovery from Garland Cardwell,
8

his federal lawyer, after September 15, 2011, once all his state
cases were adjudicated. Yet this was a full three and a half
years post-conviction, but Cardwell would not give it to Mr.
Sanders until then, while Zellmer and Mr. Sanders's Dallas County
court-appointed counsel refused to share the facts of the case
with him.

9

STATEMENT OF THE CASE
Thirty-five years ago, this Court held in United States v. Cronic
that M[i]n some cases the performance of counsel may be so inade­
quate that, in effect, no assistance of counsel is provided." 466
U.S. 648.
Under Cronic, prejudice is presumed where there has been the
complete denial of counsel, where counsel entirely fails to subject
prosecution's case to meaningful adversarial testing, or where cir­
cumstances make ineffectiveness impossible. Id. This constitutes a
violation of the defendant's Sixth and Fourteenth Amendment rights.
In Faretta v. California, this Court held that "The Sixth Amend­
ment includes a compact statement of the rights necessary to a full
defense...[it] constitutionalizes the right in an adversary crimi­
nal trial to make a defense." 422 U.S. at 819.
The Court noted also that these and other rights are afforded to
the defendant, because it is the accused who must suffer the con­
sequences thereof. Id.
Throughout this criminal proceeding, Mr. Zellmer made no attempt
to develop the insanity defense even though it was supported by
credible evidence and was the Petitioner's only viable defense.
See Davis v. Alabama, 596 F.2d 1214, 1218 (5th Cir. 1979).
Nearly 90 years ago, this Court said:
"It is not enough to assume that defense counsel thus precipi­
tated into the case (thought) there was no defense, and exercised
their best judgment in proceeding to trial without preparation.
Neither they nor the court could say what a prompt and thorough­
going investigation might disclose as to the facts. No attempt
was made to investigate.
Powell v. Alabama

287 U.S. 45, 58 (1932).

10

The Psych Eval
"The determination at trial that a defendant was insane at the
time of the commission of the crime is just that--a determination
of his mental state at the time the act was committed."
Pesch v. State

524 S.W. 2d 302 (Tex.Crim.App. 1975).

The available psychiatric mitigating evidence should have been
provided to Dr. Kelly Goodness, so she would have accurate infor­
mation of Mr. Sanders's mental state at the time the acts were
committed in order to properly assess him. This would've been the
same evidence the jury would have evaluated to decide on insanity
at the time of the offenses at trial.
Yet Zellmer only provided her with Mr. Sanders's criminal histo­
ry and one 1-hour interview. Zellmer "made only half-hearted at­
tempts to obtain independent evidence regarding this sanity and
abandoned those efforts for no strategic purpose." Loyd v. Whitley,
977 F.2d 145 (5th Cir. 1992).
Furthermore, in United States v. Kauffman, the Third Circuit
ruled that failure to conduct any investigation into possible in­
sanity defense was ineffective assistance. 109 F.3d 186 (3rd Cir.
1997) .
And the Tenth Circuit agreed, saying, "a failure to timely in­
vestigate a client's mental state, let alone a failure to assert
a mental state defense at trial, falls well below an objective
standard of effectiveness." McLuckie v. Abbott, 337 F.3d 1193,1199
(10th Cir. 2003).
Zellmer committed these same violations which have already been
deemed Sixth Amendment violations, but the Eastern District of
Texas and the Fifth Circuit decided this §2254 lacked merit and
was not taken in "good faith."
11

Zellmer's actions prejudiced Mr. Sanders's trial because he did
not wish to plead guilty and intended to go to trial with the in­
sanity defense, which was supported by credible evidence .ii Moreover,
a positive psych eval, based on the available psychiatric mitigat­
ing evidence, would've shifted the burden of proof to the State
to prove Mr. Sanders was sane at the time of the offenses. See
Profitt v. Waldron, 831 F.2d 1245 (5th Cir. 1987).

Suppression of Evidence
Zellmer complained about the confessions tying his hands, but he
made no attempt to use the available psychiatric mitigating evi­
dence to move for suppression of evidence. See Smith v. Wainwright,
777 F.2d 609 (11th Cir. 1985). Especially since Det. Fraid inter­
rogated Mr. Sanders first and revealed his psychological assess­
ment at that time. Therefore, law enforcement could not claim to
be ignorant of the fact.

Conflict of Interest
As previously stated, in lying about the existence of crucial
psychiatric mitigating evidence and suppressing it throughout the
criminal proceeding, Zellmer shows he had no intention of providing
a pro bono insanity defense even though it was Mr. Sanders's only
viable defense.
The Petitioner initially believed this to be a simple failure to
investigate thoroughly, but the submission of Zellmer's Sworn Affi­
davit proved it to be a Cronic violation because he admits he pos­
sessed and viewed the interrogation tape as early as "1-25" or
January 25, 2007. See Sworn Affidavit at 2.
12

This is significant as during this time Mr. Sanders was request­
ing that tape and a psych eval. A full two months later, as corrob­
orated per Zellmer's Sworn Affidavit, Mr. Sanders wrote him a let­
ter documenting his request for the psych eval and the tape. See
Affidavit at 2. Zellmer downplays the letter, but the contents
thereof prove that despite the requests, Zellmer withheld the tape
and lied about its existence to manipulate Mr. Sanders into plead­
ing guilty.
Zellmer had no intention of putting on a pro bono insanity de­
fense, so he withheld credible psychiatric mitigating evidence,
thus creating a conflict of interest: How can Zellmer possibly ad­
vocate the defendant's cause per Strickland v. Washington, 466 U.S.
668 (1984), if he withholds crucial evidence from the defense?
Where is the strategy in that?
"Counsel has a, duty to make reasonable investigations or to make
a reasonable decision that makes particular investigations unneces­
sary." Id.
A police detective, who had numerous opportunities to view Mr.
Sanders, unawares, makes a psychological assessment and charges
him based on that assessment--and this is on videotape. Then, other
police and witness reports support Det. Fraid's conclusions.
How can Zellmer justify not using this evidence to advance the
insanity defense, which was Mr. Sanders's only defense?
In Woodard v. Collins, the Fifth Circuit held, "When a lawyer
advises his client to plea bargain to an offense which the attorney
has not investigated, [s]uch conduct is always unreasonable." 898
F.2d 1027, 1029 (5th Cir. 1990).
These words are definitive. There is not a court out there that
hasn't ruled against such actions. Yet they are simply echoing this
13

Court's ruling in McCarthy v. United States;
"Because such a waiver is valid only if made intelligently
and voluntarily, an accused who has not received reasonably
effective assistance from counsel in deciding to plead guilty
cannot be bound by his plea."
394 U.S. 459, 466 (1969).
Why then is the Fifth Circuit going against established federal
and court of appeals rulings that are "the accepted and usual
course of judicial proceedings..." and "decid[ingj an important
federal question in a way that conflicts with relevant decisions
of this Court?" See Supreme Court Rule 10(a) &(c).
More importantly, why is the Supreme Court allowing such actions
to go unchecked and deny relief unjustly?
"[ijnformed evaluation of potential defenses to criminal charges
and meaningful discussion with one's client of the realities of his
case ane (the) cornerstones of (the) effective assistance of coun­
sel." Gaines v. Hopper, 575 F.2d 1147, 1149-50 (5th Cir. 1978).
Zellmer misrepresented "the realities of [the] case" in order to
coerce a guilty plea based on disinformation. The method was utilized
because Mr. Sanders repeatedly requested the tape and psych eval
in pursuit of the insanity defense.
In the United States v. Nahodil, the Third Circuit ruled that
an ineffective assistance claim was stated where counsel allegedly
advised defendant to plead guilty despite defendant's repeated
objections to doing so. 36 F.3d 323 (3d Cir. 1994).
Furthermore, Zellmer's burial of the psychiatric mitigating evi­
dence is also reflected in the fact that he failed to provide any
of it to Dr. Kelly Goodness when she performed the psych eval.
This failure exacerbated as Zellmer failed to utilize any of the
existing psychiatric mitigating evidence in mitigation, despite
14

the fact that it was only a punishment-phase trial.
Petitioner apologizes to the Court and does not want the Court
to think he is stating his appeal. Touching on a number of the
violations in the case was necessary before getting to the crux
of the petition.
Procedural Bar
28 U.S.C. §2244(d)(l) has four built-in tolling provisions, but
for whatever reason, only provision (a) is being used or applied by
the Fifth Circuit. This practice, which goes against established
equitable-tolling case law and is contrary to the statute itself,
is unjustly denying habeas relief.
"After all, the time when a conviction becomes final is only one
of four triggering events that Congress described in §2244(d)(l)."
Libby v. Magnusson, 177 F.3d 43, 47-48 (1st Cir.1999).
"The statute of limitations begins to run from the latest of
several possible events; the date Fisher1s state judgment became
final is the only relevant event here." Fisher v. Johnson, 174
F.3d 710 (5th Cir. 1999). "Fisher relies on our rule that a stat­
ute of limitations should be tolled if the plaintiff demonstrates
that essential information could not be found by diligent inquiry.
We apply this rule to those who could not discover in time the
factual predicate of their claim... Congress already has addressed
this in AEDPA's statutory tolling provision. See 28 U.S.C. §2244
(d)(1)(D)." Id.
Here it is evident that the Fifth Circuit is talking about a
first petition being filed under §2244(d)(1)(D), as §2244(b)(2)
pertains to second or successive petitions. Thus, the question is:
If a petitioner can demonstrate that he falls under a built-in
15

tolling provision as described in §2244(d)(l)(A)-(D), does he
also need to demonstrate the "extraordinarycircumstances" of
Holland v. Florida

130 S.Ct. 2549 (2010), or the "rare and ex­

ceptional circumstances" of Davis v. Johnson, 158 F.3d 806, 811
(5th Cir. 1998)?
Neither the statute nor case law say that a petitioner must
do both, but that is the exceedingly high standard the the district
court and the Fifth Circuit have placed on the Petitioner. This is
because these courts have misapprhended the statute and is there­
fore misapplying it.
"The present petition was due no later than November 1, 2009, in
the absence of tolling provisions. It was not filed until more than
nine (9) years later on February 14, 2019." Dkt. 8-Report & Recom­
mendation at 2.
First, the Fifth Circuit held that "In addition, the [AEDPA]
limitation period does not establish an absolute outside limit
within which suits must be filed," Davis at 811. Yet here the Fifth
Circuit goes against its own ruling by upholding the lower court's
ruling.
The amount of time elapsed between the conviction and the filing
of this appeal is irrelevant because Petitioner Sanders did not
file his first petition under §2244(d)(1)(A), but rather under (D).
Mr. Sanders received his discovery from his federal court-appointed
lawyer, Cardwell, after September 15, 2011--over three and a half
years post-conviction. Nonetheless, this constitutes a relevant
event under provision (D) as factual predicate or new evidence from
this discovery would eventually be used in this appeal.
This situation was further complicated because the U.S. Marshal
16

(Exhibit 2-A), forced Mr. Sanders to release the discovery docu­
ments or lose them when he was placed on the chain back to TDCJ.
This action should have triggered provision (B) since it impeded
his ability to file his claim. Mr. Sanders had been in possesion
of the documents less than two months, and did not have sufficient
time to review all of them prior to catching the chain on November
18, 2011.
Any action that hinders or impedes one's ability to access the
courts is unconstitutional, violating the First, Fifth and Four­
teenth Amendments to the Constitution. Under the First Amendment,
you have the right to "petition the government for redress of
grievances," and under the Fifth and Fourteenth Amendments, we
have a right to "due process of law."
Therefore, upon receiving the discovery, Mr. Sanders should have
had one year to file from that date, which is verifiable through
Garland Cardwell and Denton County Jail legal mail documentation
logs. Upon the forced release of these documents when he was placed
on chain, that year should have been suspended pursuant to §2244(d)
(l)(B)--not to began again until the impediment was lifted.
Is there a time limit to how long a petitioner can be protected
under provision (B)? The Petitioner has not found anything in the
statute or case law that limits the amount of time one has to lift
or remove the impediment under (B).
Nonetheless, §2244(d)(l) specifically says that the statute of
limitations starts from the 'latest' of its provisions, which means
a petitioner can have been under more than one of them. The tolling
provisions are present and verifiable, but the district abused its
authority by not allowing them to trigger as relevant events.
There is nothing a petitioner need do to be under a tolling pro17

vision, either your circumstances dictate it, or they do not. Do
you have newly discovered factual predicate to fall under provision
(D)? Has the Supreme Court made a ruling under provision (C) that
affects your case? If so, then the petitioner should have one year
from that date to file a §2254 petition.
Even if a petitioner has never filed a first petition, and it has
been over a year since his conviction became final under provision
(A), a relevant Supreme Court ruling under (C) should open the
gateway in a first petition (or even a second or successive one),
correct? Because there is no absolute outside time limit. See
Davis at 811.
The Petitioner's circumstances show that he requested the facts
of his case and the discovery from not one, but three different
court-appointed attorneys between November of 2006 and September
of 2011, which surpasses the diligent inquiry standard in Fisher.
Furthermore, because the Petitioner remained diligent after the
forced release of the discovery, there is documentary evidence of
his diligence in trying to reacquire the discovery thru various
sources: family, Cardwell, Dallas and Denton County.attorneys, and
the Dallas DA's office. Said documentary evidence was submitted as
well.
"A petitioner is entitled to equitable tolling only if he shows
(1) that he has been pursuing his rights diligently, and (2) that
some extraordinary circumstances stood in his way and prevented
timely filing. W.. at 649. Sanders has shown neither." Dkt. 8 at
3, citing Holland.
Although these things are irrelevant because the aforementioned
tolling provisions should have activated based on the circumstances
18

of the case, there were "extraordinary circumstances" and "rare
and exceptional circumstances" in which a home flood destroyed
the majority of the discovery documents. Yet, this was a result
or byproduct of the forced release of the discovery, and §2244(d)
(1)(B) would have already been activated. Furthermore, the circum­
stances of Holland and Davis pertain to situations where a State
action is 'not' present. 'All' state actions that hinder one's
ability to file should be covered under provision (B). Otherwise,
the forced release of the discovery, which resulted in the majority
of it being destroyed in the flood, would constitute "extraordinary"
or "rare and exceptional" circumstances.
The facts are the facts. The circumstances of this case warrant
the activation of §2244 (d)(1)(A), then (D), and then (B). Once the
surviving discovery was located and returned to the Petitioner in
September of 2016, he filed his 11.07 on March 22, 2017, and after
it was denied on November 14, 2018, Petitioner filed this §2254
three months later on February 14, 2019; so after the removal of
provision (B), the filing occurred within the one-year time frame.

19

REASONS FOR GRANTING THE PETITION
A. To avoid erroneous deprivations of the right to habeas relief,
this Court should clarify what triggers a built-in tolling
provision in §2244(d)(l), how long provision (B) can last, and
use this case as an example of how the statute should function.
The Petitioner fully understands the concept of equitable tolling
and the purpose of AEDPA, but "The clearest indication of congres­
sional intent is the words of the statute itself." Davis. Before
rulings like Holland and Fisher existed, the statute had its own
built-in tolling provisions, and if a petitioner's circumstances
warranted it, then the gateway was opened under one of those pro­
visions .
Somewhere along the way, congressional intent has been thwarted,
causing habeas relief to be denied. An applicant who uses newly
discovered evidence to file a first petition should fall under
provision (D). The amount of time that has passed since his con­
viction should not matter because there is no "absolute outside
limit." Davis at 811.
The best example is this: If this Court makes a retroactive rul­
ing, then anyone affected by that ruling can file a petition there­
after, seeking relief. Whether it has been one year, or five years,
or twenty years, is irrelevant; they have one year to file from the
date of the ruling. The caveat being that those filing a second
petition would be judged under the stricter rules of §2244(b)(2)(A)
& (B).
And the same goes for those who fall under provision (D) of this
statute on a first petition. Not everyone will fit under (D), but
those fortunate enough to obtain such factual predicate should not
be denied their right to redress, especially when it's inline with
20

the statute, and this case is.
No. It probably won't grab headlines or set any precedents, but
it will serve as an example to the lower courts that an applicant
can start under one provision, move into another one and end up in
a third. Unless the courts utilize the entire statute, the only
result will be the denial of habeas relief.
In Lonchar v. Thomas this Court said, "[d]ismissal of a first
federal habeas petition is a particularly serious matter, for that
dismissal denies the petitioner the protections of the Great Writ
entirely, risking injury to an important interest in human liberty."
116 S.Ct.1293 (1996) .

Petitioner thanks the Court for its time and consideration.

21

Addendum
I, James Earvin Sanders, the Petitioner, do hereby declare under
penalty of perjury that this Petition for Writ of Certiorari for
No: 19A1008/USCA5 19-40633 was placed into the Allred Unit mailbox
on Thursday, May 7, 2020. Petitioner has no idea why it did not
make it to the post office on May 8th or May 11,2020, at the latest.
First-class postage, in the form of 18 FOREVER stamps, was used to
mail the petition on May 7th, and another 18 will be used to mail
it out again.
I, James Earvin Sanders, also declare that I will be placing this
petition back into the unit mailing system on June 21, 2020, to be
CONCLUSION
sent Via indigent mail.
SIGNED this 21st day of June, 2020.

The petition for a writ of certiorari should be granted.

Respectfully submitted^

£
ames Earvin Sanders

Date:

May 7,2020

PLACED IN UNIT mailing system on May 7, 2020. Mailroom supervisor,
Shryl Maulden quoted postage to D.C. as $8.45 on 5/7/20.

22

